                               Closeout for MOO050024



         Our office received an allegation that the subject' presented falsified data into his
doctoral thesis and a manuscript submitted and accepted for publication. The institution
conducted an investigation and provided us with a copy of their investigation report. The
institution determined that the subject had committed an act of scientific misconduct.
The institution recommended the following actions:

       1.   Place a letter of reprimand in the subject's graduate student file.
       2.   Subject revise and resubmit his thesis.
       3.   Delay of awarding his doctoral degree by one year.
       4.   Once the above actions are met, he would be granted his doctorate and
            research papers based on his thesis work could be submitted for publication.

Our review of the institution's report determined that the investigation was thorough, fair
and accurate and we concur with its conclusions. Based on the institution's report and
our own investigation, we recommended that NSF find that the subject committed
misconduct in science. Our investigation report, the NSF Deputy Director's 29 Oct 2001
letter reflecting his decision and this memo constitute the closeout for this investigation.
                        Confidential




    Office of Inspector General


                        OIG Case MOO050024




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may
 be disclosed outside of NSF only by the Inspector General, pusuant to the
      Freedom of Infoxmation and Privacy Acts, 5 U.S.C s$552,552a.
                                                       Summary

    The Office of Inspector General (OIG) has concluded that the subject1presented falsified
        data in his doctoral thesis and in a manuscript submitted and accepted for publication. As a
        result of its investigation, the subject's educational institution found that the subject was
        gdty of scientific misconduct under its policy. We recommend that the National Science
        Foundation (NSF) fmd accordingly and send a letter of reprimand to the subject informing
        him that he has been found to have conmitted misconduct in science.

                                            The Institution's Actions
    The vice provost of an institution2informed us that an "allegation of misconduct involving
    the manipulation of portions of experimental data occurring under an NSF award has been
    the subject of an inquiry that found the reasonable possibility of research fraud existed in the
    circumstances presented by a range of evidence that warranted the conduct of an
    investigation ... ."3 The institution decided to conduct an investigation after the subject's
    division chair found "that a reasonable possibility of research fraud exists with regard to [the
    subject's] admitted manipular,ion of portions of experimental data obtained in the course of
    [his] PhD. research, which data appear in Ibis] Ph.D. thesis and were additionally included in
    a manuscript submitted, and accepted, for publication . . . ."' The subjea, who was still at
    the institution conducting post-doctoral research for another professor, had written three
    letters to his doctoral supervisor describing his action^.^

    The committee appointed to conduct the investigation summarized the subject's actions as
    follows:

                        In some cases, the sets of data points acquired by [the
                        subject] contained "spikes" consisting of data points that lay
                        away from the remainder of the points. ... When faced with
                        such "spikes" in sets of data points, [the subject] sometimes
                        sought to produce smoother-appearing data. To do so, he
                        created files of the original data and used this original data,
                        including the spikes, to calculate fits to an exponential
                        function from which lifetimes were obtained. He then
                        removed outlymg data points from the display of the fitted
                        data but did not re-fit the data, and created a new file. Since
                        no re-fitting of the original data were performed, the changes
                        were purely co~metic.~




-   1                   doctoral
                        ,Vice Provost,
    ,See             Vice
    withdreW-themanuscript after learning of the subject's actions.   -
                                                                                 The subject's doctoral supervisor

    + See Appendix 2: Chairman's notifiiationletter, dated April 14,2000.
    5 See Appendix 3: subject's letters to supervisor, dated February 23, Februaty 25, and February 29,2000..
    6 See Appendix 4: committee report, dated May 22,2000, at 2.                                   .    .
         The committee concluded that the subject "was guilty of scientific misconduct but not of
         scientific fraud."' Regarding the institution's response, the committee stated: "In deciding
         about sanctions for [the subject], the committee believes that his voluntary admission of
         misconduct in time to avoid the publication of the manuscript based on his data should be
         regarded as an indication that he has learned an important lesson."' The Vice Provost
         informed the subject of the institution's resolution in a letter:

                              You are hereby formally reprimanded for misconduct under
                              the [institution's] Policy. A copy of this letter will be placed
                              in your [institutional] graduate student file, and a copy sent to
                              your pment supervisor, [ 1, who will be advised to exercise
                              particularlycareful supervision of your work. As regards your
                              work, you will be required to revise and resubmit your thesis,
                              describing in fullwhat you actuaUy did. According to the
                              committee report, the original data can be recovered in some
                              cases. Examples of those data should be included. The
                              revised thesis must be candid, honest and comlete. This
                -   -.                                                        ___ $ the awarding
                              action will result in a delay of at least one year     ..
                                                                                                         -
                              of your doctorate.
-   - - - ---             - .-             -   - --..

                                     Once these steps have been taken,we believe you
                            may be allowed to graduate with your doctorate from [the
                            institution], and research papers based on your research may
                          - be submitted for publicationP
                                                                                  --                               -    -   --       --
                                                                       -dt o~ ~ ----
        The subject complied ~ f i - d & ~ ~ e e s ~ ~and~~ ~b CbO ~G the        ~ --s ,                                             --
                                                                                                                                 -. ..


        institution he will receive his doctoral degree in June 2001.

                                                        OIGs Assessment

        The institution's investigation report describes a fair, accurate, and thorough evaluation of
        the facts relevant to the allegation. We have used the institution's investigation report in
        forming our own conclusions and recommending a f'iding of misconduct in science.

        NSF defines misconduct in science, in relevant part, as "[f'abrication, falsification,
        plagiarism, or other serious deviation from accepted practices in proposing, carrying out, or
        reporting results from activities funded by NSF. . . ."lo Before recommending a finding of
        misconduct in science, we assess whether a preponderance of the evidence" supports a
        conclusion that the subject committed a bad act with a level of culpable intent (minixrdy,
        gross negligence) that justifies taking action against the subject.

                               -
         Id at 3.   As the Vice Provost subsequentlyexplained, "the [institutional]Policy makes a distinction between
        research f-raud,--d   miscondywl&_atdoes not amount to fraud. The committee report dram that distinction,
        f i d q that you were p l t y of miscdnduct,but not fraud." See-Appendix 5, Vice Provost's letter, dated
        June 27,2000, at 2.
        8 See Appendix 4: commitfee report, dated May22,2000,at 3.
          See Appendix 5: Vice Provost's letter, dated June 27,2000, at 2.
        lo 45 CFR 5 689.1(a)(l).
        11 45 CFR R. 689.2(4.
      The Vice Provost stated that the subject admitted that, "out of more than 100 transients
      recorded, about 2096, that is between 20 and 30,had been altered" in his doctoral thesis.''
      There were several deliberate steps involved in the falsification. The subject, at the direction
      of hts institution, revised his thesis to include a discussion of the steps he took in smoothing
      data points, and he included comparative figures demonstrating the effect his actions had on
      charting the data." The subject's letters of admi~sion'~    state he: reviewed the original data,
      altered the "noisy" data points, reconfigured the internal computer clock, saved the
      manipulated data to new data fdes, and deleted the original data files. We believe these
      deliberate acts support the conclusion that the subject acted with knowing intent to deceive.

      Accordinglyywe fulIy concur with the institution's finding that the subject falsified data
      presented in his thesis and therefore committed misconduct in science. -Althoughthe
      subject's data manipulations were intended to achieve cosmetic rather than substantive
      improvements in his research results, any falsification of data is fundamentally abhorrent to
      accepted practices in the scientific community.
          - .-   -.                  -0IG's Recommended Disposition.                   - _-    ._   ..


 .-
  In decidingappropriate actions for misconduct-in science, NSF officials must consider the
--- - - - of the misconduct, the intent with which the subject aaed, any evidence of a
 seriousness
 pattern, and finally, its relevance to other funfundkg
                                                     r e ~ e s t s oawards
                                                                     r     h v o l ~ g - & e-
 institution or individ~al.'~

 -   Although the subject's actions constituted misconduct in science, we do not believe that the
     misconduct was significant. The data manipulations came to light before the data was
     published, and the subject's subsequent compliance with the institution's directions ensured
     the integrity of the research record.

     We also believe that the subject's ma         act of bringing this matter to his thesis advisor's
     attention; the written acknowledgement of-hisethical lapses;-his full cooperation with the
     institution's investigation; and his full compliance with the institution's sanctions, are
     significant mitigating considerations.

     We are aware of no other incidents that would establish evidence of a pattern of misconduct,
     or of any other funding requests involving the subject.

                                          Recommended NSF Action

     We believe that the subject's falsifyrng of data is sufficien* serious to warrant a finding of
     rniscondua in science, and we recommend that NSF make such a finding and send a letter
     to that effect to the subject.16 In the circumstances of this case, we do not recommend that
     NSF take any other actions against the subject.



     12 See Appendix 6: Vice Provost's letter, dated August 9,2000, at 2.
     13 See Appendix 7: "Appendix111" from subject's revised doctoral thesis.
     14 See Appendix 3: subject's letters to supervisor, dated February 23, February 25, and February 29,2000.
     15 45 C.FA $689.2(b).
     16 This is a Group I action (45 C.FK $ 689.2(a)(l)(i)).
